Gregory S. Fisher, ABA 9111084
DAVIS WRIGHT TREMAINE LLP
188 West Northern Lights Blvd., Suite 1100
Anchorage, AK 99503
Phone: (907) 257-5300
gregoryfisher@dwt.com
[DATE STAMP]
FILED
AUG -9 2019
APPELLATE COURTS
OF THE
STATE OF ALASKA
IN THE SUPREME COURT FOR
THE STATE OF ALASKA
ALAINA ADKINS and
MAXIM HEALTHCARE SERVICES,
Appellants-Defendants,
vs.
JESSE MICHAEL COLLENS,
Appellee-Plaintiff.
Supreme Court No. S-16930
APPELLANT-DEFENDANT MAXIM
HEALTHCARE SERVICES, INC.’S
MOTION FOR STAY OF EXECUTION
1a

I.

Introduction

Maxim Healthcare Services, Inc., through
undersigned counsel, and in accordance with Alaska
Rules of Appellate Procedure 503, 507(c), and 512(a)
respectfully files this Motion for Stay of Execution. A
petition for rehearing is pending. If the petition is
granted, vacating the Unfair Trade Practices Act
claim, this motion may be moot. However, if the
petition is denied, the issues presented here will
require the Court’s attention.
Maxim will be filing a petition for a writ of
certiorari with the United States Supreme Court
within the time period prescribed by rule if the
pending petition for rehearing is denied. The judgment
is secured by a bond. Post-judgment interest is
accruing. Collens is not, and cannot be, prejudiced by
the brief period of time necessary to request certiorari.
However, as addressed in the affidavit of Raymond
Carbone, Chief Financial Officer for Maxim (filed as
Exhibit A to this motion), Maxim will suffer
irreparable injury. Therefore, a stay should be granted.
II.

Standard of Review

The Alaska Supreme Court uses the “balance of
hardships” test when weighing whether to grant a stay
pending final disposition of a case in situations where
“the party seeking the [stay] stands to suffer
irreparable harm and where, at the same time the

2a

opposing party can be protected from injury.”1 “The
balance of hardships is determined by weighing the
harm that will be suffered by the plaintiff if an
injunction is not granted, against the harm that will be
imposed upon the defendant by the granting of an
injunction.”2 If the balance tips in favor of the moving
party that will ordinarily be enough to show that the
moving party has raised serious and substantial
questions going to the merits of the case.3
Under the balance of hardship test, the Court
considers three factors to determine whether to grant
a motion to stay:
1) The [movant] must be faced with
irreparable harm.

1

A.J. Indus., Inc. v. Alaska Pub. Serv. Comm’n, 470 P.2d 537
(Alaska 1970). Generally, the requirements for a stay are the
same as those for a preliminary injunction. Powell v. City of
Anchorage, 536 P.2d 1228, 1129 (Alaska 1975). The four
requirements set forth in Powell are: “(1) the likelihood that the
petitioner will prevail on the merits of the appeal; (2) irreparable
injury to the petitioner unless the stay is granted; (3) no
substantial harm to other interested persons; and (4) no harm to
public interest.” Id. at 1229 n.2 (quoting 7 J. Moore, Federal
Practice 62.05, at 62-25 (2d ed. 1972)). A.J. Indus. created a
distinction between this standard and facts where the party
seeking a stay will be irreparably harmed and the non-movant can
be protected from injury. A.J. Indus., 470 P.2d at 540.
2

A.J. Indus., 470 P.2d at 540.

3

Id. (quoting Hamilton Watch Co. v. Benrus Watch Co., 206 F.2d
738, 740 (2d Cir. 1953)).

3a

2) The opposing party
adequately protected.

must

be

3) The [movant] must raise “serious” and
“substantial” questions going to the
merits of the case; that is, the issues
raised cannot be “frivolous or obviously
without merit.”4
III.

Argument
A.

The Court should grant a stay of
execution

1.

Maxim Healthcare will be faced with
irreparable harm

Maxim Healthcare will suffer irreparable harm
if judgment execution is allowed to proceed before all
judicial remedies have been exhausted. The Affidavit
of Raymond Carbone, Chief Financial Officer for
Maxim, is filed with this motion. See Exhibit A. Mr.
Carbone more particularly addresses the subject of
irreparable injury. See Affidavit of Raymond Carbone,
¶ 3 at 2-5 (Exhibit A).
In brief, as discussed further below, there is a
reasonable probability that certiorari will be granted

4

Keystone Servs., Inc. v. Alaska Transp. Comm’n, 568 P.2d 952,
954 (Alaska 1977) (quoting A.J. Indus., 470 P.2d at 541).

4a

(or probable jurisdiction noted).5 If judgment execution
is allowed to proceed, Maxim will probably need to
consider closing its Alaska operations and terminating
personnel. See Exhibit A, Carbone Affid., ¶ 3(a) at 2-3.
The judgment in this case exceeds all net income
earned in Alaska for the past eleven years (since
2008). Approximately 415 patients and 271 employees
and/or contractors will be adversely affected. Id.
Maxim is one of only thirteen home health agencies
operating in Alaska, and it is believed to be the largest
in the state. Id. Maxim’s departure would necessarily
impact public interests. Id. Before these consequences
are suffered, Maxim should be allowed to exhaust all
appellate options.
In addition, Maxim’s insurer issued a
reservation of rights on Maxim’s insurance policy, and
this dispute cannot be resolved until all appellate
options are exhausted. See Exhibit A, Carbone Affid.,
¶ 3(b) at 3. If the judgment stands as is, Maxim will
likely have to significantly restructure insurance
coverage. Maxim should be allowed a stay pending
certiorari to exhaust appellate options before such
adverse consequences are incurred.
Furthermore, Maxim may not be able to recover
sums paid if the judgment is reversed or vacated. See
Exhibit A, Carbone Affid., ¶ 3 (c) at 3. Moreover,

5

Barnes v. E-Systems, Inc., 501 U.S. 1301, 1302 (1991) (order by
single Justice granting stay). The remaining two elements are a
significant possibility that the judgment will be reversed, and a
likelihood of irreparable harm if the judgment is not stayed.

5a

Maxim filed a legal malpractice action against trial
counsel. Ascertaining damages and potential
settlement cannot be accomplished until all appellate
options have been exhausted. Id. ¶ 3(d) at 3.
Perhaps most significantly, Maxim’s credit and
financial standing will be adversely affected if
judgment execution is allowed to proceed before all
appellate options are exhausted. See Exhibit A,
Carbone Affid., ¶ 3(e) at 3-4. Maxim will likely have to
renegotiate credit lines under less favorable borrowing
terms. Id. Obviously, the same result would be reached
if a petition for certiorari was denied, but Maxim
respectfully requests the opportunity to fully and
finally exhaust all appellate options. Maxim will be
required to advance a line of credit to pay the
judgment. Id. Maxim will be charged an interest to
advance the credit, and would pay via compounded
interest. Maxim would not be able to recuperate the
interest paid of the judgment was reversed on appeal.
Before suffering such a negative impact on its financial
standing, Maxim should be allowed to exhaust
appellate options.
In addition, the judgment will have an effect on
Maxim’s ability to obtain credit in the future, and will
detrimentally affect the company’s credit rating. See
Exhibit A, Carbone Affid., ¶ 3(f) at 4.
Maxim will be required to disclose the judgment
to insurers, regulatory bodies, and potential clients,
and the judgment will likely impede Maxim’s ability to
obtain insurers, licenses with states, maintain
6a

business, and obtain future business. See Exhibit A,
Carbone Affid., ¶ 3(g) at 4. Disclosure of the judgment
will impede Maxim’s ability to obtain and maintain
insurers, licenses with states, current contracts, and
future business opportunities. These disclosures would
adversely affect Maxim’s operations and could not be
remedied if judgment was reversed on appeal. Id.
Finally, payment of the judgment will
detrimentally impact Maxim’s offices nationwide.
Payment of the judgment, absent a stay, will impact
funds available to individual offices which could be
used for expanding the patient census, improving the
quality of healthcare through training and quality
measures, and recruiting caregivers for patients. See
Exhibit A, Carbone Affid., ¶ 3(h) at 4.
Obviously, some of these same consequences
may result if certiorari is denied. But, in light of the
relevant legal principles, the extremely high verdict,
and the fact that certiorari proceedings would not take
an unduly long period of time, a stay should not be
denied. Instead, Maxim Healthcare should be afforded
the opportunity to exhaust judicial appellate remedies
by seeking certiorari.
Grounds supporting a stay and irreparable
harm are strengthened by considering the public policy
concerns underlying this case. The $20 million
judgment implicates serious issues related to
healthcare services, and the long-standing national
debate regarding healthcare costs, risks, and
healthcare policy. Discharge decisions are by definition
7a

healthcare decisions—that is why a doctor’s consent is
required. The specific allegations of this case centered
on alleged misrepresentations made in communicating
the discharge decision. Information is always conveyed
in medical care—it is the nature of informed consent.
If home health agencies are going to be subjected to
UTPA claims with treble damages every time
information is communicated, the consequent risks
will prove impossible to manage or adjust by coverage,
thereby driving businesses from the market. Maxim
should have an opportunity to exhaust all appellate
options in light of the preceding.
2.

Collens will not suffer any prejudice or
harm, and the equities weight in favor of
a stay

Maxim Healthcare has already posted a bond for
the complete amount of the judgment with interest.
The bond included the $5.5 million (27% of the total
judgment) that was reversed by the Court’s opinion.
Post-judgment interest is accruing. Therefore, Collens
can suffer no prejudice from a stay. As discussed,
Maxim Healthcare will suffer irreparable injury, and
direct and immediate harm to its financial standing
should the judgment be enforced before all judicial
remedies have been exhausted. Regarding the public
interest, hundreds of patients and employees may be
adversely affected if a stay is denied, and the State of
Alaska might lose one of its few home healthcare
agencies. See Carbone Affid., ¶ 3(a) at 2-3. The equities
weigh in favor of a stay, especially when one considers
that certiorari proceedings can be concluded within a
8a

few months.
3.

There are serious and substantial
questions going to the merits of the case,
and the issues raised are not frivolous or
obviously without merit

(a)

There is a reasonable probability that
certiorari will be granted or probable
jurisdiction noted because there are
significant federal questions implicating
due process, a sharply divergent split of
authority in lower state and federal
courts, and the resulting judgment
conflicts with established principles

There is a reasonable probability that certiorari
will be granted or probable jurisdiction noted. The
Court’s opinion directly implicates important
unresolved questions implicating significant federal
questions under the Fourteenth Amendment’s Due
Process clause, and there is a sharply divergent split
of authority in lower courts. The resulting judgment in
this case also conflicts with or is contrary to
established precedent. Probable jurisdiction under
U.S. Supreme Court Rule 10 therefore exists.
A petition for writ of certiorari will primarily
(not exclusively) focus on two questions: (1) Whether
the Due Process clause of the Fourteenth Amendment
prohibits states from imposing damages that are
grossly excessive and unreasonably disproportionate to
actual damages suffered by civil litigants (in other
9a

words, whether BMW of North America, Inc. v. Gore,
517 U.S. 559 (1996) and its progeny should be
extended to other forms of damages as argued by
scholars in the intervening twenty-three years since
the Court’s opinion); and (2) Whether the factors
identified by BMW of North America, Inc. v. Gore, 517
U.S. 559 (1996) and its progeny should be used to
analyze statutory damages in civil cases, and, if so,
whether the statutory damages awarded in this case
under Alaska’s Unfair Trade Practices Act withstand
due process scrutiny.6

Gore identified three considerations or factors
courts should evaluate when analyzing punitive
damages: (1) the reprehensibility of misconduct, (2) the
ratio of award to actual damages suffered by the
plaintiff; and (3) the difference between the punitive
damages and civil or criminal penalties that could be
imposed (sanctions for comparable misconduct). See
Gore, 517 U.S. at 575-85.
Read together, Gore, supra, State Farm Mutual
Automobile Ins. Co. v. Campbell, 538 U.S. 408 (1996),
Philip Morris USA v. Williams, 549 U.S. 346 (2007),
and Exxon Shipping Co. v. Baker, 554 U.S. 471 (2008)
hold that due process prohibits imposing unreasonably
disproportionate punitive damages.

Gore was preceded by St. Louis I.M. & S. Ry. Co.
v. Williams, 251 U.S. 63, 64 (1919), where the Court
6

The precise issues as framed may vary from this formulation,
and other issues may also be submitted.

10a

held statutory damages violate due process where the
statutory damages are “so severe and oppressive as to
be wholly disproportioned to the offense and obviously
unreasonable.”
In the intervening years since Gore,
commentators have persuasively argued that Gore’s
three-part analysis should govern all forms of civil
damages. See, e.g., Mark A. Geistfeld, “Due Process
and the Determination of Pain and Suffering Tort
Damages,” 55 DePaul L. Rev, 331 (2014); Sheila B.
Scheuerman, “Due Process Forgotten: The Problem of
Statutory Damages and Class Actions,” 74 Missouri L.
Rev. 103 (2009); J. Cam Barker, “Grossly Excessive
Penalties in the Battle against Illegal File-Sharing:
The Troubling Effects of Aggregating Minimum
Statutory Damages for Copyright Infringement,” 83
Tex. L Rev. 525 (2004); Blaine Evanson, “Due Process
in Statutory Damages,” 3 Geo. J.L. & Pub. Policy 601
(2005); Richard Nagareda, “Aggregation and its
Discontents,” 106 Colum. L. Rev. 1872, 1885 (2006);
and Samuelson & Wheatland, “Statutory Damages in
Copyright Law: Need of Reform,” 51 Wm. & Mary L.
Rev. 439 (2009).
Lower courts have faced these same arguments.
The Circuit Courts of Appeal are split regarding
whether the standard established under Gore also
applies to civil statutory damages. State courts are
also in disarray.
The Second, Seventh, and Ninth Circuits have
held or implied that Gore does apply to statutory
11a

damages. See Parker v. Time Warner Entertainment
Co., L.P., 331 F.3d 13, 22 (2d. Cir 2003); Murray v.
GMAC Mortgage Corp., 434 F.3d 948, 954 (7th Cir.
2006); Bateman v. Am. Multi-Cinema, Inc., 623 F.3d
708, 723 (9th Cir. 2010). This logically follows from the
recognition that the purpose for statutory awards
invariably includes aspects shared by punitive
damages, e.g., the need to deter others or punish the
offender.
In contrast, the First, Fifth, Sixth, and Eighth
Circuits have rejected application of Gore to statutory
damages. See Sony BMG Music Entm’t v. Tenenbaum,
719 F.3d 67, 70 (1st Cir. 2013); Vanderbilt Mortg. &
Fin., Inc. v. Flores, 692 F.3d 358, 374 (5th Cir. 2012);
Zomba Enterprises, Inc. v. Panorama Records, 491
F.3d 574, 587 (6th Cir. 2007); Capitol Records, Inc. v.
Thomas-Rasset, 692 F.3d 899, 907 (8th Cir. 2012).
State courts are also confused as to what
standard applies. For example, in Vanderbilt Mortg. &
Fin, Inc. v. Cole, 740 S.E.2d 562 (W. Va. 2013), the
West Virginia Supreme Court relied on Williams to
hold that statutory damages would be appropriate in
the absence of harm, but then cited and relied upon
State Farm to instruct the award must still be
“abstractly fair.” Id. at 570.
Other state courts have rejected Gore in the
context of statutory damages. See Comm. to Elect Dan
Forest v. Emps. Political Action Comm., 817 S.E.2d
738, 744 (N.C. Ct. App. 2018); Zink v. City of Mesa,
419 P.3d 847, 856 (Wash. App. 2018); In Re Marriage
12a

of Chen & Ulner, 820 N.E.2d 1136, 1152 (Ill. App. Ct.
2004).

Lower courts need unifying guidance from the
United States Supreme Court instructing whether and
when excessive civil statutory damages run afoul of
the Fourteenth Amendment’s Due Process clause, and
what tests or analyses to apply. In sum, there are
serious and substantial questions concerning the
merits of this case that are not frivolous or without
merit.
(b)

The due process issues are well-postured
by the statutory damages imposed under
the facts of this case

This case presents an excellent opportunity for
the United States Supreme Court to provide necessary
and uniform guidance regarding when and whether
the Fourteenth Amendment’s Due Process clause
prohibits states from imposing statutory damages that
are grossly excessive and unreasonably
disproportionate to actual damages suffered or
incurred.
Due process requires fair and reasonable notice
regarding potential implications of alleged conduct.
Damages should bear some reasonable relationship to
the actual circumstances of the case. The same factors
the United States Supreme Court identified in Gore
and its progeny, including the reprehensibility of
misconduct, the ratio of the award to actual damages
suffered by the plaintiff, and the difference between
13a

the punitive damages and civil or criminal penalties
that could be imposed, could and should apply to other
forms of damages.
(1)

Gore’s second factor is implicated by the
facts of this case

The second Gore factor analyzes the ratio of
award to actual damages suffered by the plaintiff. See
Gore, 517 U.S. at 575-85.
Here, Mr. Collens primarily suffered a
temporary (six-month) lapse of coverage under a
private duty nursing agreement. Maxim contracted to
provide private duty nursing, not to provide for Mr.
Collens’ care for the rest of his life. There was no
death, no physical injury, no complications impacting
Mr. Collens’ condition, and no loss of Medicaid
benefits.
The Superior Court entered judgment of $20
million, composed of (1) contract damages of $4.3
million for the rest of Mr. Collens’ projected life (even
though he had been lawfully discharged from Maxim’s
care in February 2013 with approval by his doctor and
care coordinator), (2) treble damages under an Unfair
Trade Practices Act claim that had never been alleged
(increasing the contract damages to $12.9 million), (3)
punitive damages of $500,000, (4) emotional stress
damages of $400,000, (5) attorney’s fees of $5.5 million
based on the UTPA claim, and (6) interest.
Mr. Collens’ own expert valued damages for the
14a

six-month period between April and October 2012
when private duty nursing services were not provided
at $287,000. [Exc. 302, ¶ 76]. Treble damages would
have increased this sum to $861,000. The actual treble
damages of $12.9 million was 15 times this amount.
Mr. Collens’ Medicaid benefits were valued at
$700,000 per year [Exc.306 ¶ 6], an amount that could
be expressed as $58,333.33 per month. Maxim received
permission to bill Medicaid for services provided.
Calculated against his Medicaid benefits, a six-month
interruption of private duty nursing services would be
valued at $350,000. Treble damages would result in
an award of $1,050,000. Mr. Collens received 13 times
this amount, or $12.9 million.

State Farm and Exxon, supra, are understood as

holding, in part, that where substantial compensatory
damages are imposed, exemplary damages should be
limited to no more than a 1:1 ratio. See State Farm,
538 U.S. at 425; Exxon, 554 U.S. at 513. The contract
damages for Mr. Collens’ projected life span were
substantial—over $4 million. The exemplary damages
(statutory treble damages) should not be more than a
1:1 ratio even if one let stand all other aspects of the
judgment. Accordingly, the statutory treble damages
that were imposed conflict with the principles
underlying this established precedent.
Regardless how one evaluates damages for the
temporary six-month lapse of coverage, the statutory
treble damages resulted in a grossly disproportionate
award, implicating the analyses under both Williams
15a

and Gore.
(2)

Gore’s third factor is implicated by the
facts of this case

The final Gore factor examines the difference
between the punitive damages and civil or criminal
penalties that could be imposed (sanctions for
comparable misconduct). See Gore, 517 U.S. at 575-85.
Alaska’s UTPA imposes treble damages in the amount
of $500 or three times the amount of damages,
whichever is greater. See AS 45.50.531(a). The
regulatory scheme governing Maxim Healthcare
envisions sanctions or loss of license for discharging a
patient contrary to a home health agency’s policies.
See 7 AAC 12.620. The glaring disparity between $500
on the one hand and $12.9 million on the other speaks
for itself.
(3)

The remaining circumstances of this case
are also relevant

The UTPA claim was never even alleged, and
was based on the provision of healthcare or medical
services, activities that the overwhelming majority of
jurisdictions have concluded is not a “service” subject
to UTPA or related consumer practices acts. See
Maxim’s Opening Brief at 20-24 (for discussion and
citation to authorities). Discharge decisions are by
definition healthcare decisions—that is why a doctor’s
consent is required. The specific allegations of this
case centered on alleged misrepresentations made in
communicating the discharge decision. Information is
16a

always conveyed in medical care—it is the nature of
informed consent. If UTPA claims can be based on
these circumstances, risk cannot be managed.
Not only did Maxim have no notice that a
fundamentally medical decision could lead to UTPA
liability, it had no notice whatsoever that such liability
could result in Maxim being required to pay for
Collens’ nursing care for the rest of his life, even after
he had been lawfully discharged with consent and
approval of his doctor and case coordinator.
Damages are intended to compensate and, in
appropriate circumstances, deter or punish. See
Cooper Industries, 532 U.S. at 436. Punitive damages
are designed to deter and punish. Consequently, one
would assume punitive damages should be imposed in
a higher range. Yet punitive damages must
nevertheless pass due process scrutiny. No lesser
standard should govern general civil damages,
including statutory damages, simply designed to
compensate, and not to deter or punish.
(c)

Therefore, there are serious and
substantial questions that are not
obviously frivolous or without merit

Therefore, the decision in this case directly
implicates important and unresolved federal questions
with diverging views from lower courts, and the
resulting judgment is contrary to principles
established by existing precedent. Probable
jurisdiction exists. Because probable jurisdiction can
17a

be noted, there are serious and substantial questions
that are not obviously frivolous or without merit.
(d)

There is a good faith basis for seeking
certiorari based on the sharp split of
authority addressing the relevant issues

There are excellent reasons for concluding that
review will be granted to clarify issues affecting an
important field of law with significant national import
that lower courts have been unable to reconcile;
specifically, when and whether excessive civil damages
are subject to due process constraints, and what
standards or analyses should be used to ensure the
Fourteenth Amendment’s Due Process clause is
honored.
(1)

At some point the United States
Supreme Court will need to provide
clarifying guidance regarding when and
whether civil damages, including
statutory damages, offend due process

Damages in civil litigation are out of control.
Congress has exponentially increased statutory
damages for a wide range of civil claims which, when
applied in class or collective actions, lead to
astronomical sums bearing no relation to actual harm.
See Geoffrey S. Stewart and Miriam S. Weller,
“Emerging Issues in Statutory Damages,” Jones Day

18a

White Paper (July 2011).7 There are nearly a dozen
federal statutes providing for various levels of
statutory damages. Id. at 2. When compounded by
aggregation of claims or persons (the latter chiefly as
a result of class actions), potential liability reaches
astronomical heights. Id. at 6-8.
States have also enacted uniform acts providing
for statutory damages, the best example of which is
the Uniform Trade Practices Act at issue in this case.
See National Consumer Law Center, “Consumer
Protection in the States: A 50 State Evaluation of
Unfair and Deceptive Practices Laws” (2015).8
The aggregate impact has resulted in an
explosion of civil damages that is often
disproportionate to any actual harm, and that
frequently punishes beneficial activity or services to
unintended degrees.
(2)

State and federal courts have been
unable to resolve current problems

As noted above, state and federal courts have
struggled to evaluate the due process implications of
excessive statutory damages, applying an analysis that
is actually at odds with Gore. See Scheuerman, 74

7

See https://www.jonesday.com/Emerging_Issues_in_Statutory

_Damages/ (Last visited March 27, 2019).
8

See https://www.nclc.org/issues/how-well-do-states-protect
-consumers.html (Last visited March 27, 2019).

19a

Missouri L. Rev. at 20-25. Stewart and Weller observe,
“judicial decisions are in disarray about courts’ power
to rein in statutory damages and, if so, under what
legal theories.” Id. at 1. They further note, “[t]he result
of this uncertainty means that, in many cases, a
defendant’s potential liability is difficult to calculate
and potentially ruinous. Individuals and companies
faced with unquantifiable risks face a chilling effect in
their legal and, in many cases, socially beneficial,
activity.” Id.
Meanwhile, states have been unable to enact
effective controls. Only eleven states have enacted
non-economic damages caps for general tort, products
liability, or personal injury cases. See Center for
Justice and Democracy at New York Law School,
“Caps on Compensatory Damages: A State Law
Summary” (2017).9 Thirty-nine have no caps.10
The absence of effective judicial or legislative
controls is an additional factor militating in favor of
intervention by the United States Supreme Court.
(3)

Extreme verdicts based on statutory
damages are resulting in damages
unmoored to any reasonable range

UTPA has spawned numerous examples of
9

See https://centerjd.org/content/fact-sheet-caps-compensatory

-damages-state-law-summary) (last visited March 27, 2019).
10

Id.

20a

extreme verdicts based on statutory damages either in
or out of the class action context. For example, in BP
West Coast Products, LLC v. Scharfstein, 423 P.3d 757
(Ore. App. 2018),the court affirmed a statutory award
exceeding $409 million based on BP’s failure to post
notices advising consumers regarding a 35 cent debit
card fee.
This case demonstrates an equally recurring
problem, statutory damages mandatorily imposed
without any procedural or substantive safeguard to
ensure that the total amount comports with basic
principles of due process.
As already discussed, under Alaska’s UTPA, a
prevailing plaintiff is entitled to $500 or treble
damages, whichever is greater. See AS 45.50.531(a).
Where, as here, the compensatory damages are
substantial (over $5 million), the trebling effect
multiplies the resulting judgment beyond any
reasonable or expected range.
There is no difference between arbitrary
punitive damages fueled by a jury’s unbridled passion
and statutory damages imposed by legislative fiat with
no judicial oversight. Statutory multipliers such as
that found under UTPA are indistinguishable from
punitive damages which this Court has characterized
as a “windfall to a fully compensated plaintiff.” City of
Newport v. Fact Concerts, Inc., 453 U.S. 247, 267
(1981). In its opinion in this case, the Alaska Supreme
Court re-emphasized that the purpose for treble
damages under UTPA is different from the purpose for
21a

punitive damages. The avowed purposes for treble
damages do not support such a large amount of
damages.
These considerations lend additional weight to
the conclusion that there is a good faith basis for
seeking certiorari.
B.

There is no other countervailing
consideration to deny a stay

As noted the bond is in place, and post-judgment
interest is accruing. The bond covered the entire
amount of the judgment, and $5.5 million of that
representing 27% of the total judgment protected by
the bond has been reversed.
In the merits briefing, Collens’ primary
arguments to this Court were procedural waiver
arguments. Consequently, it may be assumed that
Collens will argue, as he did before, that waiver
precludes Maxim Healthcare’s relief. Collens will
contend that any petition for certiorari will fail
because Maxim Healthcare never properly preserved
the due process arguments.
There was no waiver. Whether a party
adequately presents a federal question to a state court
is a federal question to be decided under federal
principles. Street v. New York, 394 U.S. 576, 583
(1969); Lovell v. City of Griffin, 303 U.S. 444, 449-50
(1938). The U.S. Supreme Court has not established
any rule, leaving it instead “to the discretion of the
22a

courts of appeals, to be exercised on the facts of the
individual cases.” Singleton v. Wulff, 428 U.S. 106, 121
(1976).
In the Ninth Circuit, a pure question of law is
not waived where it does not prejudice the opposing
party.11 The due process issue raised here presents a
pure question of law. Maxim Healthcare raised the due
process issue in its Opening and Supplemental Briefs.
See Opening Brief at 29-30; Supplemental Brief at
11-12. Moreover, any such waiver argument that Mr.
Collens may make misapprehends the analysis for a
stay. The benchmark is simply an examination
regarding whether there is a reasonable probability
that certiorari will be granted or probable jurisdiction
noted.12
IV.

Conclusion

Maxim Healthcare therefore respectfully
requests that the Court grant its Motion to Stay
Judgment pending a resolution on Maxim’s petition for
writ of certiorari.

11

See Scott v. Ross, 140 F.3d 1275, 1283-84 (1998); Kimes v.
Stone, 84 F.3d 1121, 1126 (9th Cir. 1996); Columbia Steel Casting
Co., Inc. v. Portland Gen. Elec. Co., 111 F.3d 1427, 1443 (9th Cir.
1996).

12

See Barnes, 501 U.S. at 1302. The remaining considerations
are that there is a significant possibility (not probability) that the
judgment will be reversed, and a likelihood of (not actual or
proven) irreparable harm.

23a

DATED this 9th day of August, 2020.
Davis Wright Tremaine LLP
Attorneys for Maxim Healthcare Services
By:
Gregory S. Fisher, ABA 9111084
Certificate of Service
The undersigned hereby certifies that on the 9th day of
August, 2019, I caused a true and correct copy of the
foregoing to be served on the following via U.S. Mail:
Michael T. Stehle, Esq.
Law Office of Michael Stehle, PC
1200 R. Street, Suite B
Anchorage, AK 99501

Attorney for Appellee-Plaintiff
Susan Orlansky
Reeves Amodio LLC
500 L Street, Suite 300
Anchorage AK 99501

Attorney for Appellee-Plaintiff
Jeffrey M. Feldman
Summit Law Group
315 5th Avenue South, #1000
Seattle WA 98104

Attorney for Appellee-Plaintiff

24a

Roger F. Holmes
Biss & Holmes
3948 Clay Products Drive
Anchorage AK 99517

Attorney for Amicus Curiae
Alaska Medical Association
John J. Tiemessen
Clapp Peterson Tiemessen
Thorsness & Johnson
411 4th Avenue, Suite 300
Fairbanks AK 99701

Attorney for Amicus Curiae
Alaska Dental Association
By:

Julie M. Gauthier

25a

